 iq$#,$..
  .
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
  4
    0                                        CLOSEOUT MEMORANDUM
      &N D


Case Number: I05040015                                                                             Page 1



                                                                                    '
         A proactive review of participant.support funds allocated in NSF awards under a PI^ from a
         Northeastern organization3was concluded and resulted in an investigation being conducted to
         determine the appropriate use of NSF funds.

         The investigation concluded that the organization did not provide proper overview of NSF award
         funds. Neither the organization nor the PI had applied for or obtained the authority to reallocate
         the participant support funds from the NSF Program ~ f f i c e r . ~

         The organization refunded NSF $24,083.83 through the Federal Cash Transaction Report of
         March 3 1,2006. In addition, the organization's comptroller5stated that for future awards the
         organization will set up a separate account for each NSF award and monitor monthly all
         spending.
                                                                                                    I


         With the crediting of this award and the letter of compliance, all issues are resolved.

         Accordingly, this case is closed.




         ' XXXXXxxXXXXXX
           xxxxxXxxxxxxX
         ' xxxXxxXXXXXXX
           xxxXXXXXXXXXX
           xxxXXXXXXXXXX




NSF OIG Form 2 (1 1102)
